No. 19-392
IN THE SUPREME COURT OF THE UNITED STATES
MARTIN A. ARMSTRONG, PETITIONER
V.

SECURITIES AND EXCHANGE COMMISSION, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 3rd day of February 2020.
[See Attached Service Listj
As required by Supreme Court Rule 33.1(h), I certify that the document contain 4,096 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
February 3, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-000 1
(202) 514-2217
February 3, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0392
ARMSTRONG, MARTIN A.
SEC, ET AL.

GEORGE W. HICKS
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20005
202-3 89-5 000
GEORGE.HICKS@KIRKLAND.COM
THOMAS V. SJOBOLM
LAW OFFICE OF THOMAS V. SJOBLOM
1300 I STREET, NW
SUITE 400E
WASHINGTON , DC 20005

